TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                           Office of Inspections and Evaluations




                                       RECOVERY ACT

                     Review of Section 1603 Grants In Lieu
                       of Energy Investment Tax Credit



                                      December 17, 2013

                            Reference Number: 2014-IE-R006




        This report has cleared the Treasury Inspector General for Tax Administration disclosure
          review process and information determined to be restricted from public release has
                                   been redacted from this document.

 Redaction Legend:
 2c=Law Enforcement Tolerance


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                      DEPARTMENT OF THE TREASURY
                                            WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               December 17, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                         R. David Holmgren
                               Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                      Final Inspection Report – Review of Section 1603 Grants in Lieu
                               of Energy Investment Tax Credit (IE-13-003-A)

 This report presents the results of our inspection to determine if the Internal Revenue Service
 (IRS) has established a permanent process to identify taxpayers that have received American
 Recovery and Reinvestment Act of 2009 (Recovery Act)1 Section 1603 grants.2
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of IRS programs.
 This inspection was conducted using Recovery Act funds.

 Synopsis
 The IRS has not developed a permanent process to identify taxpayers that have received
 Section 1603 grants and that may have erroneously claimed one of two investment tax credits,
 the Energy Production Tax Credit3 or the Energy Investment Tax Credit,4 on the same property.
 In addition to other restrictions, taxpayers, upon accepting the Section 1603 grant, elect not to
 claim an investment tax credit for qualifying facilities placed into service on or after




 1
   Pub. L. No. 111-5, 123 Stat. 115 (2009).
 2
   Taxpayers upon accepting the Section 1603 grants elect not to claim the energy tax credits under Internal Revenue
 Code (I.R.C.) Section (§) 48 of the renewable electricity production tax credit under I.R.C. § 45 with respect to
 otherwise qualifying facilities placed into service on or after January 1, 2009.
 3
   I.R.C. § 45.
 4
   I.R.C. § 48.
                           Review of Section 1603 Grants In Lieu
                             of Energy Investment Tax Credit



January 1, 2009.5 As of May 10, 2013, the Department of the Treasury has awarded 9,016 grants
totaling $18.5 billion.
The IRS is currently conducting a Compliance Initiative Project (CIP)6 on taxpayers that
received Section 1603 grants primarily during 2009.7 During our review period, an extension of
the time period for the CIP was requested and approved for June 30, 2015. Although the CIP
was in process during our review, tentative results were available. The Large Business and
International Division8 selected and examined 16 taxpayers and reportedly identified significant
issues in eight. Similarly, the Small Business/Self-Employed Division9 selected 83 taxpayers for
examination and identified changes for 51. Although the results are not final and cannot be
predicted, the IRS’s recent justification to extend the CIP stated, “Anecdotes from the Service
[IRS] staff attending industry and practitioners’ discussions suggest that some practitioners are
encouraging the use of leasing transactions because that allows fair market value to be overstated
to increase the grant amount.” This statement and the apparent noncompliance issues identified
in the CIP may indicate the need for further oversight of the $18.5 billion distributed through this
grant program.

Recommendation
We recommended that the Commissioners for Large Business and International Division and
Small Business/Self-Employed Division evaluate the feasibility of establishing an indicator on
taxpayer accounts that received Recovery Act Section 1603 grants. This indicator could be
established and updated based on the Section 1603 grant recipient file sent by the Department of
the Treasury quarterly and annually. This indicator would provide permanent notice on the IRS
files that this taxpayer had received a Section 1603 grant and therefore caution should be taken in
processing any amended returns that claim an investment tax credit.




5
  There are other adjustments to computing future taxability that the taxpayer agrees to when receiving the
Section 1603 grant.
6
  A CIP is any activity involving contact with specific taxpayers and collection of taxpayer data within a group,
using either internal or external data to identify potential areas of noncompliance within the group, for the purpose
of correcting the noncompliance. A CIP Part 2 authorizes examinations of 50 or more taxpayers.
7
  The CIP has been expanded to include Tax Years 2010 and 2011.
8
  The Large Business and International Division is an operating division within the IRS that serves corporations,
subchapter S corporations, and partnerships with assets greater than $10 million. These businesses typically employ
large numbers of employees, deal with complicated issues involving tax law and accounting principles, and conduct
business in an expanding global environment.
9
  The Small Business/Self-Employed Division is an operating division within the IRS that serves small business and
self-employed taxpayers by helping them to understand and meet their tax obligations.
                                                                                                                    2
                       Review of Section 1603 Grants In Lieu
                         of Energy Investment Tax Credit




Response
IRS management agreed with the recommendation. The Commissioners for Small Business/
Self-Employed Division and Large Business and International Division plan to evaluate the
feasibility of establishing an indicator on taxpayers’ accounts that received Recovery Act
Section 1603 grants. If they determine that establishing the proposed indicator is not feasible or
practical, they will consider other effective alternatives. Management’s complete response is
included as Appendix V.
If you have any questions, please contact me at (202) 927-7048 or Kevin P. Riley, Director,
Office of Inspections and Evaluations, at (972) 249-8355.




                                                                                                     3
                                  Review of Section 1603 Grants In Lieu
                                    of Energy Investment Tax Credit




                                              Table of Contents

Background ............................................................................................................ Page 1

Results of Review ................................................................................................. Page 3
          The Internal Revenue Service Does Not Have a Permanent
          Process to Identify Taxpayers That Received Section 1603
          Grants and May Have Erroneously Claimed an Investment
          Tax Credit ....................................................................................................... Page 3
                     Recommendation 1:.......................................................... Page 4


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology .......................... Page 5
          Appendix II – Major Contributors to This Report .......................................... Page 6
          Appendix III – Report Distribution List ......................................................... Page 7
          Appendix IV – Overview of Section 1603 Grants Awarded .......................... Page 8
          Appendix V – Management’s Response to the Draft Report ......................... Page 9
      Review of Section 1603 Grants In Lieu
        of Energy Investment Tax Credit




               Abbreviations

CIP      Compliance Initiative Project
IRS      Internal Revenue Service
ITC      Investment Tax Credit
                             Review of Section 1603 Grants In Lieu
                               of Energy Investment Tax Credit




                                             Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act),1 enacted on
February 17, 2009, contained both spending and tax provisions, including the allocation of
$787 billion over 10 years to stimulate the national economy. One of the stated goals of the
Recovery Act is to “…foster unprecedented levels of accountability and transparency in
government spending.” To do so, the Recovery Act created the Recovery Accountability and
Transparency Board2 with two goals: to provide transparency of Recovery Act expenditures and
to prevent and detect fraud, waste, and mismanagement.
The Internal Revenue Service (IRS) is responsible for administering the tax law changes
contained in the Recovery Act. In April 2009, the IRS received an appropriation of Recovery
Act funds totaling $202 million.3 These funds were required to implement the necessary tax
changes resulting from provisions of the Recovery Act. The changes included, but were not
limited to, reprogramming the IRS computer systems, updating related tax forms and
publications, and providing customer service to assist taxpayers in obtaining their Recovery Act
benefits.
Section 1603 of the Recovery Act contains provisions that impact the IRS’s administration of the
tax laws. The purpose of a Section 1603 grant is to reimburse eligible applicants for a portion of
the cost of installing a specific energy property used in a trade or business or for the production
of income. Section 1603 of the Recovery Act authorizes the Department of the Treasury to make
payment to individuals or companies that place specific types of energy properties into service
on or after January 1, 2009, provided certain conditions are met. This cash payment to an
individual or company is made instead of an investment tax credit (ITC), either the Energy
Production Tax Credit4 or the Energy Investment Tax Credit.5 The Department of the Treasury
forwards a file containing the Section 1603 recipients’ information quarterly and annually to the
IRS for information.



1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  Eleven Inspectors General from various Federal agencies serve with the chairman on the Recovery Accountability
and Transparency Board. The Recovery Accountability and Transparency Board issues quarterly and annual reports
to the President and Congress and, if necessary, “flash reports” on matters that require immediate attention.
3
  This appropriation included $80 million for Fiscal Years 2009 through 2010 to implement the Health Coverage
Tax Credit program. The IRS also received $123 million for supporting tax provision changes cited in the Recovery
Act. The Department of the Treasury retained $1 million for administrative oversight, resulting in the IRS receiving
$202 million.
4
  Internal Revenue Code Section 45.
5
  Internal Revenue Code Section 48.
                                                                                                            Page 1
                             Review of Section 1603 Grants In Lieu
                               of Energy Investment Tax Credit



As of May 10, 2013, the Department of the Treasury has awarded 9,016 grants totaling
$18.5 billion.6 Figure 1 shows the growth of the program by year in terms of the number of
grants awarded and amounts awarded.
            Figure 1: Total Amount and Number of Grants Awarded by Year


                                         Total Number
                     Year                  of Grants                    Grant Amount
                     2009                     148                          $1.6 billion
                     2010                   1,396                          $3.1 billion
                     2011                   2,584                          $4.7 billion
                     2012                   4,084                          $6.5 billion
                     2013                     804                          $2.7 billion
                     Total                  9,016                       $18.5 billion7
                Source: Department of the Treasury’s Recovery Act website as of May 10, 2013.

While these grants have been given to a variety of energy property types, wind and solar
properties have received the majority of the funds, totaling $12.6 billion and $4.4 billion
respectively. Appendix IV provides a more detailed overview of the amounts awarded to each
type of energy property.
This review was performed at the IRS National Headquarters in Washington, D.C., and the
Office of the Deputy Commissioner, Domestic, Large Business and International Division, in
Houston, Texas, during the period April through August 2013. We conducted this inspection in
accordance with the Council of the Inspectors General for Integrity and Efficiency Quality
Standards for Inspections. Detailed information on our objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




6
  The Department of the Treasury regularly publishes a list of Section 1603 grants awarded on its website and sends
quarterly and annual reports on this program to the IRS.
7
  Grant amounts in this column do not sum exactly to $18.5 billion due to rounding.
                                                                                                            Page 2
                            Review of Section 1603 Grants In Lieu
                              of Energy Investment Tax Credit




                                      Results of Review

The Internal Revenue Service Does Not Have a Permanent Process to
Identify Taxpayers That Received Section 1603 Grants and May Have
Erroneously Claimed an Investment Tax Credit
In May 2011, the IRS initiated a Compliance Initiative Project (CIP) of some taxpayers that
received Section 1603 grants primarily during 2009.8 The CIP was originally scheduled to be
completed in June 2013 and was subsequently extended (in May 2013) to include additional
returns and to be completed by June 30, 2015. A CIP is an executive-approved study involving a
population of taxpayers with a unique tax issue. These projects traditionally are approved for a
set period of time, but they can be reconsidered and reapproved with an adjusted scope and new
completion period. CIPs involve examinations of specific taxpayers within the group using
internal and/or external data to identify potential areas of noncompliance, many times done by
selecting a sample of taxpayers from the population. The purpose of a CIP is to identify and
correct areas of noncompliance. This particular CIP seeks to study and improve compliance by
taxpayers that received Section 1603 grants from the Department of the Treasury.
While this CIP is still ongoing, we reviewed the CIP’s preliminary results as of July 17, 2013.
The Small Business/Self-Employed Division examined a sample of returns where the dollar
value of the grant was greater than or equal to **2c***, a threshold that encompassed the
majority of the grants attributed to small business and self-employed taxpayers. The Small
Business/Self-Employed Division examined 83 taxpayers and identified changes in
51 (61 percent).9 The Large Business and International Division examined returns where the
dollar value of the grant was greater than or equal to **2c***. According to the CIP Status
Report, the Large Business and International Division conducted 16 examinations and identified
potential significant issues resulting in changes in eight examinations (50 percent).10
When the Recovery Act became law, one of the commitments by Congress to the American
people was to ensure that the funds being distributed would be subject to unprecedented
Government and public transparency and that these funds would be subject to the highest degree
of protection to prevent or identify fraud, waste, abuse, and mismanagement. In light of this



8
  The CIP has been expanded to include Tax Years 2010 and 2011. A tax year is a 12-month accounting period for
keeping records on income and expenses used as the basis for calculating the annual taxes due. For most individual
taxpayers, the tax year is synonymous with the calendar year.
9
  As of July 12, 2013.
10
   As of September 17, 2012.
                                                                                                           Page 3
                        Review of Section 1603 Grants In Lieu
                          of Energy Investment Tax Credit



commitment, the noncompliance issues identified in the CIP may indicate the need for further
oversight of the $18.5 billion distributed through this grant program.
While the CIP shows that the IRS has provided some initial oversight, CIPs have an established
completion date and therefore, to remain open, they must periodically be reconsidered and
reapproved. The IRS needs a process to identify taxpayers that receive Section 1603 grants as
well as ITC benefits from the same property. The current CIP is an excellent way to identify a
sample of returns for examination. However, this is a relatively short-term effort considering
that the Internal Revenue Code allows qualified taxpayers to use ITC’s for up to five years prior
and 20 years after the ITC was original claimed. A taxpayer may initially comply with the
program rules and requirements and subsequently file amended tax returns claiming the ITC.
The IRS has no indicator to identify that the taxpayer had received a Section 1603 grant for that
or similar property and that the amended return may need additional review to ensure an ITC was
not incorrectly claimed.

Recommendation
       Recommendation 1: We recommended that the Commissioners for the Small
       Business/ Self-Employed Division and Large Business and International Division
       evaluate the feasibility of establishing an indicator on taxpayers’ accounts for taxpayers
       that received Recovery Act Section 1603 grants. This indicator could be established and
       updated based on the Section 1603 grant recipient file sent by the Department of the
       Treasury quarterly and annually. This indicator would provide permanent notice on the
       IRS files that this taxpayer has received a Section 1603 grant and therefore caution
       should be taken in processing any amended returns that claim the ITC.
       Management’s Response: IRS management agreed with the recommendation. The
       Commissioners for Small Business/Self-Employed Division and Large Business and
       International Division plan to evaluate the feasibility of establishing an indicator on
       taxpayers’ accounts that received Recovery Act Section 1603 grants. If they determine
       that establishing the proposed indicator is not feasible or practical, they will consider
       other effective alternatives, such as continuing to expand the CIP.




                                                                                           Page 4
                            Review of Section 1603 Grants In Lieu
                              of Energy Investment Tax Credit



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine if the IRS has established a permanent
process to identify taxpayers that have received Recovery Act,1 Section 1603 grants.2
To accomplish this objective, we:
I.      Documented the procedures used to identify taxpayers that received the Section 1603
        grants and are claiming an ITC.
II.     Verified the functionality of any system or processes put in place by the IRS to track or
        identify taxpayers claiming an ITC that may have erroneously received Section 1603
        grants.
III.    Determined whether the IRS has established effective controls to track, identify, record,
        and report list of recipients for ITC claims.




1
 Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
 Taxpayers, upon accepting the Section 1603 grants, elect not to claim the energy tax credits under Internal
Revenue Code Section 48 of the renewable electricity production tax credit under Internal Revenue Code Section 45
with respect to otherwise qualifying facilities placed into service on or after January 1, 2009.
                                                                                                         Page 5
                       Review of Section 1603 Grants In Lieu
                         of Energy Investment Tax Credit



                                                               Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director, Inspections & Evaluations
Stanley Rinehart, Supervisory Evaluator
Joseph Wolemonwu, Program Analyst
Lindsay Steward, Program Analyst




                                                                     Page 6
                      Review of Section 1603 Grants In Lieu
                        of Energy Investment Tax Credit



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner for Operations Support OS
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
      Large Business and International Division SE:LB
      Small Business/Self-Employed Division SE:S




                                                                        Page 7
                 Review of Section 1603 Grants In Lieu
                   of Energy Investment Tax Credit



                                                                                 Appendix IV

 Overview of Section 1603 Grants Awarded

Figure 2: Grant Amounts Awarded to Each Type of Energy Property

                 Energy Property Type                         Grant Amount
     Wind                                                        $12.6 billion
     Solar                                                        $4.4 billion
     Geothermal Heat Pump                                     $573.5 million
     Biomass                                                  $390.5 million
     Hydropower                                               $155.5 million
     Landfill gas                                             $146.8 million
     Fuel Cell                                                $145.0 million
     Trash Facility                                             $28.2 million
     Combined Heat & Power                                      $14.1 million
     Marine                                                      $9.1 million
     Microturbine                                                $1.4 million
     Total                                                      $18.5 billion
   Source: Department of the Treasury’s Recovery Act website as of May 10, 2013.




                                                                                       Page 8
        Review of Section 1603 Grants In Lieu
          of Energy Investment Tax Credit



                                                Appendix V

Management’s Response to the Draft Report




                                                     Page 9
Review of Section 1603 Grants In Lieu
  of Energy Investment Tax Credit




                                        Page 10
